                                         Pension Benefit Guaranty Corporation
                                                                         Office of Inspector General
                                                         1200 K Street, N.W., Washington, D.C. 20005-4026




The Board of Directors
Pension Benefit Guaranty Corporation

I am pleased to present the Office of Inspector General (OIG) Semiannual Report for the Pension Benefit
Guaranty Corporation (PBGC). This is a consolidated report and covers two semiannual periods, April 1, 2011
through September 30, 2011 and October 1, 2011 through March 31, 2012. During this combined period, we
issued eight audit and evaluation reports with 59 recommendations for improvement. We completed five
investigations, resolved 104 complaints, continued investigative work on three cases that were accepted for
prosecution by U.S. Attorneys’ Offices during prior semiannual periods, and had three additional cases accepted
for prosecution. Our investigation of a plan trustee who improperly directed plan assets to his own business
ventures resulted in his pleading guilty to violation of 18 U.S.C. § 664, ”Theft or Embezzlement from an
Employee Plan.” The trustee subsequently entered into a plea agreement with a restitution order.

As outlined in the OIG Strategic Plan for Calendar Years 2011 through 2016, the activities described in this
report are consistent with our strategic goals, including:

       focusing efforts on areas of highest impact on PBGC performance;
       making recommendations that have impact; and
       performing timely, relevant, and high quality audits and investigations.

Much of the work completed during this period was either Congressionally requested or mandated by statute.

       PBGC Processing of Terminated United Airlines Pension Plans – This evaluation, performed in follow-up
         to an inquiry from Congressman George Miller, described serious errors and omissions in PBGC’s
         determination of the fair market value of plan assets and the reliability of data used to calculate
         participants’ benefits for four terminated United Airlines pension plans. The issues identified were
         systemic and led to our conclusion that $26 million expended by PBGC for substandard audit services
         over a six-year period was “funds to be put to better use.”

       FY 2011 Financial Statements Audit Reports. We issued four reports in connection with our audit of
         PBGC’s annual financial statements, including (1) a report presenting the 19th consecutive unqualified
         opinion on PBGC’s general purpose financial statements, as well as an adverse opinion on PBGC’s
         system of internal control; (2) a detailed internal control report discussing PBGC’s three material
         weaknesses; (3) a report presenting an unqualified opinion on PBGC’s special-purpose financial
         statements that are consolidated into the Financial Report of the U.S. Government; and (4) a
         management letter report identifying less significant matters related to PBGC internal controls and
         operations.

During the time periods covered by this report, information technology (IT) continued to be a significant focus
of our efforts.

     We issued the independent evaluation report required by OMB describing the overall results of our
       assessment of PBGC’s information security programs and practices.
     We finalized the FY 2011 Vulnerability Assessment and Penetration Testing report, a restricted
      disclosure report that detailed the results of our testing of the PBGC information security infrastructure.
    We worked with PBGC to establish a reporting framework through which PBGC would report every 90
      days on progress in correcting or mitigating PBGC’s critical and high risk vulnerabilities.
    We met frequently with the Chief Information Officer (CIO) and his staff to understand PBGC’s progress
      toward completion of its corrective action plans to address the significant deficiencies reported in prior
      OIG audits.

These accomplishments are the direct result of work performed by the dedicated PBGC OIG professional staff
and exemplify our commitment to ensuring PBGC’s efficiency and effectiveness. Our success is also due to the
continued support and interest of the PBGC Board of Directors, the Board Representatives, the PBGC Director
and interested Committees and Members of Congress.




Rebecca Anne Batts
Inspector General
Table of Contents
Letter to the Board of Directors

Executive Summary ............................................................................................................ 1

Introduction ............................................................................................................................ 3
       The Pension Benefit Guaranty Corporation
       The Office of Inspector General

Management Challenges

PBGC’s Post Termination Processing Actions............................................................... .5
       PBGC Processing of Terminated United Airlines Pension Plans Was
         Seriously Deficient
       PBGC Action in Response to Findings of Fundamental Issues in
         Post-Termination Plan Processes

PBGC’s Financial Statement Audit: Unqualified Opinion on Financial
Statements and an Adverse Opinion on Internal Controls .................................. .12
    Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2011 and 2010
        Financial Statements
    Report on Internal Control Related to the Pension Benefit Guaranty
        Corporation’s Fiscal Year 2011 and 2010 Financial Statements Audit
    Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2011 and 2010
        Special-Purpose Financial Statements
    Fiscal Year 2011 Financial Statements Management Letter
    Statutory Review of PBGC’s Compliance with the Implementation of
        The Improper Payments Information Act

Improving PBGC Operations ........................................................................................... .18
       Protecting Privacy
       Suspension and Debarment Program
       Liaison

Information Technology Issues Caused Additional Risks ..................................... .19
       FY2011 Federal Information Security Management Act (FISMA) Submission
         to the Office of Management and Budget
       FY2011 Vulnerability Assessment and Penetration Testing Report

PBGC Management Decision Needed for Recommendations in OIG’s Audit
Report on PBGC’s Preparedness for a Potential Influx of Pension Plans ......... .21


                          SEMIANNUAL REPORT TO CONGRESS                                     PERIODS ENDING 9/30/11 AND 3/31/12                iii
     Investigations ....................................................................................................................... .22

            Fiduciary Breach Investigation Results in Conviction and Restitution Order
            PBGC Employees Fraudulently Received More Than $10,000 in Parking Subsidies
            PBGC Employee Terminated for Travel and Purchase Card Fraud
            Management Advisory: Senior-level Manager Misconduct

     Status of Audit Recommendations ................................................................................ .26


     Other OIG Reporting ........................................................................................................... .30
        Access to Information
        Management Decisions
        Audit Peer Review Results


     Other Office of Inspector General Activities ....................................................... .31
            Review of Proposed Statutory and Regulatory Changes
            Audit Peer Review of the Federal Reserve OIG
            Audit Manager Receives Prestigious Barry R. Snyder Award
            Inspector General Presentations to Professional Gatherings
            Leadership of CIGIE Committees
            External and Internal Professional Activities


     Appendix ............................................................................................................................. .35
            Cross-Reference to Reporting Requirements of the Inspector General Act
            Summary of Audit and Investigative Activities
            Results of Reports Issued
            Summary of Reports Older Than Six Months for Which Management
               Decision Has Not Been Achieved
            Previously Reported Significant Recommendations for Which Corrective
               Action Has Not Been Completed




iv    PBGC OFFICE OF INSPECTOR GENERAL
Executive Summary
This consolidated Semiannual Report to Congress summarizes the activities and
accomplishments of the Pension Benefit Guaranty Corporation Office of Inspector General
for two periods: April 1, 2011 through September 30, 2011, and October 1, 2011 through
March 31, 2012. During these reporting periods, our work addressed a wide range of issues
with the Corporation:

 • Our evaluation of PBGC’s post-termination “audits” of the United Airlines pension plans
   – the plan asset, participant data and source document audits - found that PBGC’s work
   was seriously flawed. Based on this work, as well as prior work related to the National
   Steel pension plans, we concluded that the $26 million paid to PBGC’s audit services
   contractor for its work over a six-year period was “funds to be put to better use” (see
   pages 5-10).
 • We issued the 19th consecutive unqualified opinion on PBGC’s financial statements. For
   a third year, we reported an adverse opinion on internal control based on three material
   weaknesses: enterprise-wide security program planning and management; access
   controls and configuration management; and Benefits Administration and Payment
   Department operations. We issued a report on internal control to provide greater detail
   about these material weaknesses (see pages 12-17).
 • We concluded that PBGC was generally in compliance with the Improper Payments
   Information Act (see page 18).
 • We worked closely with the Office of the General Counsel, providing an independent
   voice in support of their efforts to protect PBGC’s assets and improve its operations,
   including implementation of a new suspension and debarment process and expanded
   training on privacy awareness (see pages 18-19).
 • Based on our information technology review work, we reported that security
   weaknesses continued to pose serious risks to PBGC (see pages 19-21).
 • Our investigative activity resulted in a plan sponsor pleading guilty to a fiduciary breach
   in which he used plan money to purchase land for his own benefit in another business
   venture; the recovery of lump-sum pension money stolen by a participant’s spouse; a
   finding that PBGC employees had fraudulently received more than $10,000 in parking
   subsidies; and PBGC’s termination of an employee based on our report that the
   employee engaged in travel and purchase card fraud (see pages 22-26).
 • With respect to PBGC’s corrective actions to address outstanding audit
   recommendations, we noted that the Procurement Department made good progress in
   addressing some of the older audit recommendations. As a result, we were able to
   concur in the closure of 39 recommendations relating to contracting and procurements.
   As of March 31, 2012, a total of 195 recommendations were open, with the majority of
   outstanding recommendations addressing issues in the areas of benefit administration
   and of IT (see pages 26-29) .
        SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/11 AND 3/31/12              1
              THIS PAGE INTENTIONALLY LEFT BLANK




2   PBGC OFFICE OF INSPECTOR GENERAL
  Introduction
The Pension Benefit Guaranty Corporation
For about 44 million Americans, PBGC provides assurance that their retirement
benefits will be paid, up to a statutory limit. PBGC protects the pensions of
participants in certain defined benefit pension plans (i.e., plans that promise to pay
definite, determinable retirement benefits). Such defined benefit pension plans may
be sponsored individually or jointly by employers and unions. PBGC is now                    PBGC pays benefits
responsible for the pensions of about 1.5 million people in more than 4,300 failed           to 873,000 retirees
plans. In its FY 2011 performance report, PBGC reported that: (1) every month, on               every month.
average, it paid $458 million for 873,000 retirees; (2) it assumed responsibility for
more than 57,000 additional workers and retirees in 134 failed plans; and (3) it is
responsible for future payments to about 628,000 who have not yet retired.

As of the end of FY 2011, PBGC had an investment portfolio of more than $73 billion.
The Corporation reports having sufficient liquidity to meet its obligations for a
number of years, despite a cumulative deficit of $26.1 billion from the single-
employer and multiemployer programs. Neither program at present has the
resources to satisfy all of the benefit obligations already incurred, much less future
obligations likely to be assumed.

The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-owned Federal
Government corporation to administer the pension insurance program. ERISA
requires that PBGC: (1) encourage the continuation and maintenance of voluntary
private pension plans, (2) provide for the timely and uninterrupted payment of
pension benefits to participants and beneficiaries, and (3) maintain premiums at the
lowest level consistent with carrying out PBGC’s obligations.

PBGC’s governance structure comprises the Board of Directors, their Board
Representatives, a Presidentially-appointed Director, and Congressional oversight.
Other elements of governance include PBGC’s system of internal control, its clearly
articulated authority to act, and the policies and procedures under which PBGC
operates. PBGC governance is complex and requires those who are charged with its
oversight to view the Corporation from a number of differing perspectives.
Oversight by the PBGC Board, PBGC management and the OIG is critical to effective
corporate governance.


The Office of Inspector General
The PBGC Office of Inspector General (OIG) was created under the 1988 amendments
to the Inspector General Act of 1978. We provide an independent and objective voice

                SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12          3
                    that helps the Congress, the Board of Directors, and PBGC protect the pension
                    benefits of American workers. Like all Offices of Inspector General, the PBGC OIG is
                    charged with providing leadership and recommending policies and activities
                    designed to prevent and detect fraud, waste, abuse, and mismanagement;
                    conducting and supervising independent audits and investigations; and
                    recommending policies to promote sound economy, efficiency, and effectiveness.

                    To provide value, we focus our work on the challenges facing PBGC. We strive to
                    target the highest risk areas and emphasize timely reporting of results. We determine
                    what we will investigate and audit and how we will conduct those investigations and
                    audits. We determine our own priorities and have our own independent legal
                    counsel. Our audit and investigative staff is competent and experienced, with
                    professional backgrounds in other Offices of Inspector General, independent
                    accounting firms, and federal criminal investigative agencies. We independently
                    respond to Congressional requests and initiate contact with Congress, as warranted.

OIG work targets    The PBGC OIG is in full compliance with the Quality Standards for Federal Offices of
 high risk areas.   Inspector General, published by the Council of Inspectors General on Integrity and
                    Efficiency (CIGIE) updated in December 2011. Our audit work is performed in
                    compliance with Generally Accepted Government Auditing Standards, issued by the
                    Comptroller General of the United States, and our investigations are performed in
                    compliance with CIGIE Quality Standards for Investigations.

                    The PBGC OIG is organizationally independent. The Inspector General reports directly
                    to the highest level of PBGC governance, the PBGC Board, and to Congress. In
                    executing our independent oversight role, we perform a range of legally-mandated
                    work (e.g., the annual financial statement audit and the annual Federal Information
                    Security Management Act review), as well as a body of discretionary work.




         4          PBGC OFFICE OF INSPECTOR GENERAL
Management Challenges
Over the past year, PBGC has continued to be faced with many of the long-standing
issues that could threaten the Corporation’s ability to effectively perform its mission.
Our recent audit, evaluation, and investigative work addressed a wide range of
concerns, including persistent weaknesses in PBGC information technology security.
Our reports also described serious flaws in fundamental pension plan processes used
by PBGC to value a terminated plan’s assets and to validate the plan’s participant
data. PBGC accepted seriously deficient audit work performed by its own audit
services contractor, resulting in our conclusion that the entire $26 million paid to the
contractor was “funds to be put to better use.”

PBGC leadership agrees that the issues we have reported are serious and must be
corrected. Based on our continuing discussions with the PBGC Board and Board
Representatives, the PBGC Director and members of the Executive Management
Committee, we believe that the Corporation understands the need for correction of
these serious issues.

OIG Assessment of PBGC’s Post Termination Processing
Actions
Audit work over the past 18 months found that PBGC’s post-termination processes
for pension plans – including their “audits” of plan assets, participant data and source
documents – has produced unreliable results. This occurred because PBGC’s
contractor produced work with errors and omissions and the work was not properly
reviewed and overseen by the Federal employees charged with responsibility for
post-termination processing.

PBGC Processing of Terminated United Airlines Pension Plans
Was Seriously Deficient
EVAL-2012-05/PA-10-72
(http://oig.pbgc.gov/audit/2012/pdf/PA-10-72-1.pdf)

In response to a request from then Chairman George Miller of the House Committee
on Education and Labor, we determined that PBGC failed to protect the interests of
United Airlines workers and retirees when it contracted for and accepted a series of
poor quality and mistake-ridden audits. Serious errors and omissions plagued PBGC’s
determination of (1) the fair market value of plan assets and (2) the reliability of data      PBGC’s audit
used to calculate participants’ benefits for four terminated United Airlines pension        contractor produced
plans. PBGC did not follow its own established protocols or ensure compliance with           seriously deficient
applicable professional standards for audits of terminated United Airlines pension                 work.
plans. Neither the PBGC leadership responsible for providing oversight nor the
employees of Integrated Management Resources Group, Inc. (IMRG), a PBGC
contractor, demonstrated the requisite skills and understanding to perform the
audits. As a result, neither PBGC nor the plan participants had reasonable assurance
with regard to the accuracy of retirement benefits. Based on the systemic nature of

             SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/11 AND 3/31/12           5
                        the issues identified, we concluded that the $26 million, expended over a six-year
                        period by PBGC on its audit services contract with IMRG, were “funds to be put to
                        better use” – that is, funds would have been better spent if work had been performed
                        by a firm that could have performed the work in accordance with government
                        auditing standards as required by the contract.

                        In accordance with the Employee Retirement Income Security Act of 1974 (ERISA), as
                        amended, the value of a plan’s assets is used in calculating retirement benefits, given
                        that a participant’s benefit is the greater of the guaranteed benefit or the amount
                        funded by plan assets. For some plans, including the United Airlines’ plans, increases
                        in the calculated value of plan assets at the date of plan termination may result in
                        increased benefits for some plan participants. However, for other plans, even
                        relatively large increases in the value of plan assets may not translate into additional
                        benefits for retirees. PBGC regulations call for plan assets to be valued “at their fair
                        market value, based on the method of valuation that most accurately reflects such
                        fair market value.”

                        Contractor “Audits” Were Seriously Flawed

                        PBGC’s contract with IMRG required the firm to conduct a series of audits of
                        terminated pension plans consistent with Government Auditing Standards. For the
PBGC’s workpapers       four terminated UAL plans, IMRG produced 14 reports, including plan asset,
  contained obvious     participant data, source document and electronic source document audits. Each of
errors and omissions.   these reports contained significant errors and omissions, and reached conclusions
                        unsupported by the workpapers or underlying analyses.

                        Plan Asset Audits. PBGC’s contractor, IMRG, completed the initial four plan asset
                        audits intended to establish the fair market value of United Airlines plan assets at the
                        dates of plan termination. PBGC employees signed the four reports, indicating their
                        acceptance of the reports and the supporting workpapers. However, our review
                        showed that IMRG’s reports and workpapers contained obvious errors and omissions
                        and faulty reasoning, as well as a number of critical unsupported conclusions that
                        were not identified by PBGC reviewers. For example:

                               In every instance in which IMRG’s substantive audit tests to validate the fair
                                 market value of an asset produced a result different from the UAL plans’
                                 custodian bank (trustee), IMRG simply accepted the trustee’s valuation and
                                 did not conduct further work to identify the reasons for the difference. Over
                                 and over, we identified instances in which PBGC audit services contractor
                                 concluded that the error rate was high (e.g., 100 percent), while
                                 simultaneously concluding that the values in the statements were in
                                 agreement with their findings.

                               IMRG auditors did not gather sufficient evidence or properly calculate
                                 interest earned on securities owned by the UAL master trust. One instance
                                 cited in our report showed a basic lack of understanding of how to calculate
                                 bond interest in that IMRG incorrectly used the market value of the bond
                                 instead of the face value in the calculation of accrued interest.

                               There was no evidence that either PBGC or IMRG performed required audit
                                 procedures to identify fraud waste, or abuse. That is, there were no

           6            PBGC OFFICE OF INSPECTOR GENERAL
         procedures performed to: (1) ensure that all plan assets had been located or
         to identify and value additional assets, if any, beyond those listed in the
         custodian bank statements; or to (2) assess the legitimacy of asset transfers
         and transactions.
       Though the assets of the four UAL plans were held in a commingled master
         trust, there was no work to ensure that the asset allocations among the four
         plans were reliable or to validate the source and use of the allocation
         percentages.
The following flow chart demonstrates how the methodology used by PBGC and
IMRG in the UAL plan asset audits resulted in reliance on trustee values, without
regard to whether those values were supported or correct. As shown below, there
were no circumstances under which IMRG would not accept the trustee’s valuation.




The failure to independently validate asset values affected all four of the United
Airlines plan asset audits.

Other Post Termination Audits. Participant data audits are intended (in part) to
verify participants’ records to ensure the reliability of data obtained to calculate
participants’ benefits. IMRG issued five separate participant data audit reports
                                                                                                  Participant data
relating to the United Airlines plans, one for each of the four plans as well as a
comprehensive participant data audit report to address United Airlines participant               audits and source
data overall. Additionally, PBGC paid the audit contractor for work on four source             document audits were
document audits and an electronic source document audit, all related to one or more               also unreliable.
of the four United Airlines pension plans. Our review showed that each of these ten
audit reports contained obvious errors, omissions, and failures of logic. For four of the
five participant data audit reports, major factual errors further limited the usefulness
and reliability of the reports.

Finally, we determined that PBGC did not obtain manual source records in
accordance with established PBGC protocols, and drew conclusions in the various
participant data audits based on a sub-sample of data that was not representative of
participant records. That is, PBGC inappropriately drew conclusions about data for
United Airlines participants based on a review of files for retirees and without
analyzing manual source documentation for active and separated vested

                  SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12           7
                       participants. Active and separated vested participants comprise more than 85,000
                       participants – over two-thirds of the total. The impact of the scope limitation that
                       arose from UAL’s purported denial of access to certain source documents was
                       referenced in four of the five participant data audits and in three of five source
                       document audits.

                       Thus, we concluded that neither PBGC nor its contractor IMRG exercised due
                       professional care in the conduct of the initial four UAL plan asset audits, the
                       participant data audits, or the source document audits. Further, PBGC did not
                       provide effective oversight for the contractor and accepted and paid for sub-
                       standard and obviously flawed audit work. As a result, neither PBGC nor the plan
                       participants had reasonable assurance that plan assets were identified, correctly
                       valued, and properly allocated to the individual United Airlines pension plans, or that
                       critical data was obtained from UAL.

                       PBGC’s Re-Valuation of UAL Plan Assets

                       When the OIG brought the errors and omissions in PBGC’s audits of United Airlines
                       plans to the attention of the Corporation, PBGC contracted with a CPA firm to
                       perform a re-valuation of UAL plan assets. However, PBGC agreed to the CPA firm’s
                       use of a flawed methodology that was inconsistent with federal regulations requiring
                       plan assets be valued based on the method that most accurately reflects fair market
                       value at the date of plan termination. Further, we found that PBGC employees had
                       not performed adequate oversight of the 2011 re-valuation work performed by the
                       CPA, nor had PBGC ensured an effective review of the CPA firm’s reports and
                       supporting workpapers. Some errors and omissions could have been identified and
PBGC’s re-valuation    corrected if a more critical and professional review had been made of the reports and
 of plan assets also   supporting workpapers. As a result of PBGC’s lax oversight, in April 2011, PBGC
                       accepted and paid for four additional UAL plan asset valuation reports containing
contained errors and
                       errors in fact and in logic that fell short of compliance with key contract terms and
     omissions.        applicable federal regulations. That is, the four reports that were intended to replace
                       the seriously flawed plan asset audits performed by IMRG were also themselves
                       significantly flawed.

                       After we brought examples of the errors and omissions included in the re-valuation
                       work to PBGC’s attention, the Corporation issued a request for proposal to the CPA
                       firm, asking that they provide a plan for re-work and a proposed cost for correcting
                       some of the errors and shortcomings that OIG had identified. The CPA firm provided
                       a plan and a bid for the additional work and PBGC advised OIG that a new call order
                       would be issued. However, after OIG explained that the additional work called for in
                       the new contract vehicle would still not provide necessary assurance about key
                       elements needed to ensure that plan assets are valued at fair market value, as
                       required by PBGC’s regulations, PBGC decided to hold the CPA firm accountable for
                       correcting identified errors and omissions.

                       PBGC booked adjusting entries to its financial records based on the results of these
                       flawed reports. After OIG expressed concerns with the validity of the April 2011 CPA
                       firm reports, PBGC reversed the entries in its financial records, pending PBGC
                       leadership’s decision with regard to appropriate asset valuations.

                       As of the date of our report, the CPA firm had made no changes to the April 2011
                       plan asset valuation reports, although they reported having made modifications and
          8            PBGC OFFICE OF INSPECTOR GENERAL
improvements to the supporting workpapers. In response to our work, PBGC reports
that it implemented a more detailed and in-depth review procedure for the re-
valuations of UAL and National Steel plan assets.

Systemic Errors and Omissions in Audits of Terminated Pension Plans

In our March 30, 2011, Evaluation Report No. 2011-10/PA-09-66-1, entitled PBGC’s
Plan Asset Audit of National Steel Pension Plans Was Seriously Flawed, we identified
omissions and errors related to the plan asset audit for National Steel plans that were
similar to the problems we identified with the United Airlines plan asset audit. Both
National Steel and United Airlines plan asset work was completed by the same audit
services contractor, IMRG. Further, we noted that PBGC also used this same
                                                                                            PBGC expended
contractor to perform hundreds of plan asset and participant data audits during the
last decade. While PBGC does not have a definitive listing showing the specific plan      $26 million on audits
terminations for which IMRG provided audit services, our review of available                that did not meet
evidence showed that IMRG had worked on at least eight of the ten largest pension             professional
plan terminations in PBGC’s history.
                                                                                               standards.
PBGC’s own reviews provided an indication of problems with PBGC’s plan asset
audits and with IMRG, its audit contractor. A PBGC-commissioned assessment of its
trusteeship of large defined benefit plans completed by Hewitt Associates in
September of 2007 concluded, in part, that Benefits Administration and Payment
Department (BAPD) auditors (both Federal and contract employees) lacked the audit
skills necessary to adequately perform their roles. Also, an internal PBGC review of
plan asset audits, completed late in 2010 after OIG’s initial briefings on United
Airlines issues, identified errors and omissions in the audits tested throughout BAPD.

Based on our work – a prior evaluation of the plan asset audit for National Steel; our
evaluation of four plan asset audits, five participant data audits, four source
document audits, and an electronic source document audit for United Airlines; and
our review of the practices and procedures in place at PBGC’s audit contractor — we
concluded that none of the audits performed by IMRG during the course of the audit
services contract had been performed “consistent with the Government Auditing
Standards” as required by IMRG’s contract with PBGC. In addition to the
shortcomings in its audit reports, we noted that IMRG did not have the infrastructure
in place necessary for its audit work to meet the minimum applicable standards. That
is, IMRG did not have an effective quality control system, an external peer review of
compliance with its system of quality controls, or documentation that its audit staff
met minimum requirements for continuing professional education. As a result of
IMRG’s failure to provide work consistent with government auditing standards, as
required in its contract with PBGC, we concluded that the $26 million expended by
PBGC over a six year period on IMRG’s audit services were “funds to be put to better
use.” That is, using PBGC’s funds on professional audit services in compliance with
applicable standards would have been a better use than expenditure of funds on
audits that fell far short of those standards.

Recommendations and PBGC’s Response

Based on our work, we made 15 recommendations for improvements in PBGC’s
processes and to correct specific errors and omissions in the UAL plan asset audit
work. Our recommendations addressed the need for PBGC to:

             SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12           9
                           Ensure its policies, procedures and protocols consistently require plan assets
                             to be valued based on the method that most accurately reflects fair market
                             value as of the date of plan termination.

                           For valuations of very large plans, plans with significant valuation challenges,
                             and plans where error rates exceed allowable thresholds, ensure that results
                             are briefed to a PBGC senior leader who understands plan asset valuation
                             issues and that any deviations from protocols are documented and
                             concurred in by the senior leader.

                           Clarify current procedures or develop new ones to require documentation of
                             the resolution of variances, to validate allocation percentages when assets
                             are held in a master trust, to provide guidance for instances where a plan
                             sponsor denies access to records, and to ensure the validity of conclusions
                             based on sampling practices.

                           Ensure that PBGC employees and contractors who conduct post-termination
                             activities – e.g., plan asset valuations and participant data reviews – have the
                             requisite knowledge, skills and abilities to perform the work competently.
                             That is, PBGC should require continuing professional education and ensure
                             that some team leaders and managers to have enhanced qualifications such
                             as a CPA license or audit experience outside BAPD.

                           Develop a quality event tracking tool.

                           Elevate the post-termination quality review function to promote objectivity
                             and encourage independence of thought and action.

PBGC should take           For the UAL plan asset re-valuation, value assets at fair market value and
                             document efforts to obtain alternate value sources if the trustee’s value is
action to improve
                             determined to be the only evidence of fair market value; consult with
post-termination             industry experts on how to obtain sufficient, competent, and reliable
    processes.               evidence about the accuracy of allocation percentages; and carefully review
                             the contractor’s workpapers and require necessary adjustments.

                           As part of PBGC’s planned strategic review, develop and implement
                             processes to ensure post-termination audits are done in accordance with
                             established standards and with an appropriate level of assurance.

                    PBGC generally agreed with the report’s findings and recommendations, however,
                    for six of the 15 recommendations, PBGC’s proposed responses did not provide
                    sufficient information about what it would do for OIG to determine whether we
                    could agree with PBGC’s proposed management decision. Since the issuance of our
                    report, PBGC has provided additional information that allows us to concur in their
                    planned corrective actions for five of the six remaining recommendations. We
                    continue to follow-up with PBGC management regarding an appropriate plan for
                    implementation of the final recommendation.




         10         PBGC OFFICE OF INSPECTOR GENERAL
PBGC Action in Response to Findings of Fundamental Issues in
Post-Termination Plan Processes

PBGC should be acknowledged for beginning to take action to address the systemic
issues that contributed to the serious errors and omissions in PBGC’s audits of
terminated pension plans. When we brought the errors and omissions in PBGC’s
audits of both the National Steel and United Airlines pension plans to the attention of
the Corporation, the PBGC Director expressed his commitment to correcting the
specific errors for these plans’ participants, as well as addressing the systemic issues.
As PBGC wrote in its response to the UAL report: “If people have been underpaid, we
will correct the error and pay the overdue amount with interest and an apology. If             PBGC Director
participants have been overpaid, the payments will be adjusted gradually, without            commits to corrective
either interest or penalty.”                                                                       action.

PBGC leadership initiated a series of efforts at corrective action:

       The Corporation awarded a contract to multiple Certified Public Accounting
         (CPA) firms for re-valuations of plan asset audits, with those of the National
         Steel and UAL plans being among the first to be re-done. (We note that this
         engagement will provide less assurance than a properly completed audit
         performed consistent with Government Auditing Standards—the
         engagement that PBGC originally contracted and paid for).

       PBGC contracted with a major consulting firm for a comprehensive analysis
         of the appropriateness of BAPD’s current organizational structure and
         operations to meet its mission challenges. The analysis proposed alternatives
         for an organizational structure that is better aligned with BAPD mission
         responsibilities.

       PBGC meets regularly with OIG, both at the leadership and staff levels, to
         keep OIG apprised of progress of actions and decisions made.

Our review of PBGC’s re-valuation of UAL plan assets showed it had not been
effective in providing a reasonable level of assurance about the value of plan assets.
The results of PBGC’s own review were consistent with this determination.
Consequently, in December 2011, PBGC issued yet another call order under its
blanket purchase agreement contract to have the plan asset valuation re-performed.
This call order was issued to a different CPA firm (now the third contractor to perform
the UAL asset valuation) in February 2012, with expected reports and supporting
workpapers to be completed this spring. PBGC’s review is to be completed soon
thereafter so that final asset values can be provided to the actuaries for the necessary
calculation of benefits work between April and July 2012. PBGC expects to
communicate final benefit determinations to UAL participants in August 2012. As of
March 31, 2012, PBGC’s review of the National Steel re-valuation review had been
completed, decisions had been made about additional work to be done by PBGC and
the CPA firm including the need for clarified and better supported workpapers, and
expectations communicated to the CPA firm.

Initiated in April 2011, the first phase of PBGC’s strategic review has been completed
and includes a current-state assessment report addressing many of the factors that
contributed to the problems described in OIG’s National Steel and United Airlines

               SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/11 AND 3/31/12          11
                      evaluation reports, including workforce, contracting, business processes, and quality
                      control practices. The second phase, also complete, includes options for a future
                      state operating model. Both reports were submitted to PBGC in October 2011. The
                      Deputy Director of Operations is charged with overseeing this strategic review, with
                      decisions regarding changes in process, personnel, and organization being made by
                      the Director. As of March 31, 2012, certain high-level decisions had been made about
                      changes to the organization, including establishing:

                             a specialized unit for asset valuation issues;
                             a specialized unit for data acquisition and management; and
                             an independent quality management unit.

                      PBGC reports that details regarding processes and personnel are still in development.

                      Financial Statement Audit: Unqualified Opinion on Financial
PBGC’s financial      Statements and an Adverse Opinion on Internal Controls
  statements are
“presented fairly.”   PBGC received its 19th consecutive unqualified, or “clean,” opinion on its financial
                      statements for FY 2011. However, it fell short in its internal controls, receiving its
                      third consecutive adverse opinion on internal control.

                      Audit of the Pension Benefit Guaranty Corporation’s Fiscal Year 2011
                      and 2010 Financial Statements
                      AUD-2012-1/FA-11-82-1
                      (http://oig.pbgc.gov/audit/2012/pdf/FA-11-82-1.pdf)

                      Our audit of PBGC’s Single-Employer and Multiemployer Program Funds concluded
                      that the financial statements were presented fairly, in all material respects, in
                      conformity with accounting principles generally accepted in the United States of
                      America. In this unqualified opinion on PBGC’s financial statements, other
                      information important to understanding PBGC’s financial position is included. By
                      law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-
                      sustaining. However, over a long course of years, PBGC has operated in a deficit
                      position – i.e., its long-term liabilities to pay the pension benefits to participants in
                      terminated pension plans exceed its assets.

                      As of September 30, 2011, PBGC reported in its financial statements net deficit
                      positions (liabilities in excess of assets) in the Single-Employer and Multiemployer
                      Program Funds of $23.27 billion and $2.77 billion, respectively. While PBGC has been
                      able to meet its short-term benefit obligations, as noted in our audit report and
                      discussed in Note 1 to the financial statements, PBGC management believes that
                      neither program at present has the resources to fully satisfy PBGC’s long-term
                      obligations to plan participants.

                      As an insurer, PBGC is required to estimate the loss exposure that is reasonably
                      possible as a result of unfunded vested benefits in not-yet-terminated pension plans.
                      Our report explained that PBGC estimated the loss exposure that is reasonably
                      possible for the Single-Employer and Multiemployer Programs to be $227 billion and
                      $23 billion, respectively. For the Single-Employer Program, PBGC estimated this
                      liability using data for fiscal years ending in calendar year 2010 from filings and
                      submissions to the government (which was the latest available) and from corporate
          12          PBGC OFFICE OF INSPECTOR GENERAL
annual reports. This estimated liability amount had not been adjusted for economic
conditions through September 30, 2011. As a result the exposure to loss for the
Single-Employer Program as of September 30, 2011 could be substantially different
from the estimate reported in PBGC’s financial statements.

In FY 2011, PBGC reported that its deficit position for the Multiemployer Program had
almost doubled from $1.4 billion (as of 9/30/10) to $2.77 billion, and its exposure to
plans where termination is reasonably possible increased from $20 billion (as of
9/30/10) to $23 billion. This significant growth in PBGC’s liability for multiemployer
plans reflects PBGC’s expectation that increasing numbers of multiemployer plans
will become insolvent, and PBGC will pay non-recoverable financial assistance to
continue pension benefits to those plans’ participants.

The financial statements audit was conducted by Clifton Gunderson LLP under
contract with our office.

Adverse Opinion on Internal Control

For the third consecutive year, we reported that PBGC had not maintained effective
internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations and its operations as of September 30, 2011.
A new material weakness was reported this year in the operations of the Benefits
Administration and Payment Department (BAPD). Serious internal control
                                                                                           PBGC did not
weaknesses in the BAPD’s operations were identified by the OIG and others during FY
2011. These significant control weaknesses introduced additional risks to PBGC.           maintain effective
Specific deficiencies included errors in valuation of plan assets, lack of                internal control.
documentation supporting benefit payments, errors in benefit calculations, and poor
oversight of the Pension and Lump Sum System (PLUS). BAPD’s weak internal
controls created an environment that could lead to fraud, waste, and abuse.

The material weaknesses described below were serious enough to result in the
expression of an adverse opinion on internal control. Three material weaknesses
were reported, including deficiencies in PBGC’s (1) entity-wide security program
planning and management, (2) access controls and configuration management, and
(3) Benefits Administration and Payment Department operations. We also reported
one significant deficiency in integrated financial management systems.

Since the time of the first adverse internal control opinion in the FY 2009 financial
statements audit report, PBGC has made only minimal progress toward correction of
the reported issues. Though it has initiated efforts in the reorganization and
improvement of its security planning and management through the design and
implementation of a more coherent strategy to manage its information systems,
these efforts are far from complete.

Compliance with Laws and Regulations

Tests of PBGC’s compliance with selected laws and regulations disclosed an instance
of reportable non-compliance in which PBGC valued the plan assets of terminated
pension plans and failed to apply the regulation in 29 CFR § 4044.41, Subpart B,
requiring that “Plan assets shall be valued at their fair market value, based on the
method of valuation that most accurately reflects such fair market value.” Because

             SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12        13
                      the objective of the audit was not to provide an opinion on overall compliance with
                      laws and regulations, no such opinion was expressed.

                      Report on Internal Control Related to the Pension Benefit Guaranty
                      Corporation’s Fiscal Year 2011 and 2010 Financial Statements Audit
                      AUD-2012-2/FA-11-82-2
                      (http://oig.pbgc.gov/audit/2012/pdf/FA-11-82-2.pdf)

                      As part of the annual financial statements audit discussed above, Clifton Gunderson
                      prepared an internal control report to provide more detailed discussions of the
  Three material      specifics underlying the material weaknesses and reported in the internal control
weaknesses affected   opinion of the combined independent auditor’s report. PBGC’s response to this
                      internal control report indicated management’s agreement with and their
     PBGC.
                      commitment to addressing each recommendation, and to remediating the
                      associated material weaknesses.

                      The internal control report provided details about material weaknesses in the
                      following areas:

                      1. Entity-wide Security Program Planning and Management;
                      2. Access Controls and Configuration Management; and
                      3. Benefits Administration and Payment Department Operations.

                      We also reported that the lack of an integrated financial management system was
                      considered to be a significant deficiency.

                      Material Weaknesses and Significant Deficiency

                      Entity-wide Security Program Planning and Management – An entity-wide
                      information security management program is the foundation of a security control
                      structure and a reflection of senior management’s commitment to addressing
                      security risks. The security management program should establish a framework and
                      continuous cycle of activity for assessing risk, developing and implementing effective
                      security procedures, and monitoring the effectiveness of these procedures.

                      During FY 2011, PBGC continued the implementation of a series of multi-year
                      Corrective Active Plans (CAPs) to address fundamental weaknesses in its entity-wide
                      security program planning and management. These weaknesses will continue to
                      pose a threat to PBGC’s environment for several years while corrective actions are
                      being implemented. Because many of these CAPs are not scheduled for completion
                      until 2015, we have noted the exigent need for interim corrective action to protect
                      PBGC’s information and systems.

                      One long-standing issue is PBGC’s failure to have an effective Certification &
                      Accreditation (now Assessment and Authorization (A&A)) program to provide
                      security assurance about its IT systems. During FY 2011, PBGC began the
                      implementation of a more rigorous and thorough A&A process. Through this process,
                      PBGC identified fundamental security control weaknesses for its general support
                      systems, many of which were reported in prior year’s audits. While this was an
                      important step in the planning process, these security control weaknesses remained
                      unresolved and PBGC’s efforts lacked meaningful incremental progress. PBGC

          14          PBGC OFFICE OF INSPECTOR GENERAL
reported that they are in the process of performing A&As on major applications. The
slow rate of progress has introduced additional risks including technological
obsolescence, inability to execute corrective actions, breakdown in communications
and poor monitoring.

Access Controls and Configuration Management – We reported that PBGC’s
decentralized approach to system development, system deployment, and
configuration management created an environment that lacked a cohesive structure
in which to implement controls and best practices. Weaknesses in the IT environment
contributed to deficiencies in system configuration, segregation of duties, role-based
access controls, and monitoring. Furthermore, PBGC’s information systems were
overlapping and duplicative, employing obsolete and antiquated technologies that
were costly to maintain. The state of PBGC’s IT environment led to increased IT
staffing, manual workarounds, additional reconciliation procedures, extensive
manipulation, and excessive manual processing. However, these compensating
controls were ineffective in mitigating system control weaknesses.

The material weakness in PBGC’s access and configuration management controls did
not provide PBGC with sufficient assurance that financial information and financial
                                                                                                PBGC’s IT
assets were adequately safeguarded from inadvertent or deliberate misuse,
fraudulent use, improper disclosure, or destruction. Access controls should be in          environment lacked a
place to consistently limit access, detect inappropriate access to computer resources       cohesive structure.
(data, equipment, and facilities), and monitor access to computer programs, data,
equipment, and facilities, thereby protecting against unauthorized modification,
disclosure, loss, or impairment. Configuration management and control procedures
are critical to establishing an initial baseline of hardware, software, and firmware
components and subsequently controlling and maintaining an accurate inventory of
any changes to the system.

These weaknesses will continue to pose a threat to PBGC’s environment for several
years while corrective actions are being implemented. Thus, PBGC will need to
implement interim corrective actions to ensure fundamental security weaknesses do
not worsen over the planned five-year CAP implementation.

Benefits Administration and Payment Department Operations – We reported that
PBGC had serious internal control weaknesses in this area that introduced additional
risks to PBGC. Specific deficiencies included errors in valuation of plan assets as
reported by the OIG, lack of documentation supporting benefit payments, errors in
benefit calculations, and poor oversight of the Pension and Lump Sum System (PLUS)
as described in the financial statement audit. PBGC is currently undergoing a
strategic review that may address organizational structure and operational issues.
PBGC has committed to developing a plan in FY 2012 that will address the
deficiencies noted. This plan is intended to focus on fundamental issues such as
internal controls, processes, contractor oversight, and training and staff
competencies.

Many of the weaknesses identified stemmed from poor management of contractors.
Effective oversight requires good communications with contractors on their
responsibilities for contract compliance. Contracted services are an extension of
PBGC’s internal controls. PBGC’s management did not always consider the exposure
and risk that contractors introduce into its environment and how to manage that risk.

              SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12          15
                     PBGC did not properly review, assess, and monitor contractor’s controls related to
                     contracted services.

                     During FY 2011 we noted deficiencies in the oversight of contracted reviews of asset
                     values at the date of plan termination. These deficiencies were caused by a failure to
                     establish and apply a quality review process to verify and validate the satisfactory
                     completion of contracted plan asset valuation audits, and a failure to establish a
                     detailed process to ensure the consistent application of a methodology to determine
                     the fair market value of plan asset at date of plan termination as required by
                     regulation.

                     Integrated Financial Management Systems – As reported in prior year audits, the risk
                     of inaccurate, inconsistent, and redundant data was increased because PBGC lacked a
                     single integrated financial management system. The system could not be readily
                     accessed and used by financial and program managers without extensive
                     manipulation, excessive manual processing, and inefficient balancing of reports to
                     reconcile disbursements, collections, and general ledger data — a condition that led
                     to a significant deficiency.

                     OMB Circular A-127, Financial Management Systems, requires that Federal financial
                     management systems be designed to provide for effective and efficient
                     interrelationships between software, hardware, personnel, procedures, controls, and
                     data contained within the systems. This Circular states:

                            The term “single, integrated financial management system” means a
                            unified set of financial systems and the financial portions of mixed
                            systems encompassing the software, hardware, personnel, processes
                            (manual and automated), procedures, controls and data necessary to
                            carry out financial management functions, manage financial operations
                            of the agency and report on the agency’s financial status to central
                            agencies, Congress and the public. Unified means that the systems are
                            planned for and managed together, operated in an integrated fashion,
  Work remains to
                            and linked together electronically in an efficient and effective manner
 integrate PBGC’s           to provide agency-wide financial system support necessary to carry out
      financial             the agency’s mission and support the agency’s financial management
management system.          needs.

                     Because PBGC has not integrated its financial systems, PBGC’s ability to accurately
                     and efficiently accumulate and summarize information required for internal and
                     external financial reporting is impacted. PBGC has made some progress in this fiscal
                     year, including: (1) work on its Enterprise Target Architecture , which provides the
                     road map for all PBGC system development and integration, including financial
                     management system integration, and (2) implementation of certain interface
                     enhancements for the Consolidated Financial System (CFS) – e.g., payroll interface
                     modernization, and new interfaces for procurement, travel, and invoice automation –
                     to provide additional automated capabilities for CFS and reduce the amount of
                     manual data inputs for certain transactions.

                     Major work remains to be completed before PBGC has fully integrated financial
                     management capabilities.


         16          PBGC OFFICE OF INSPECTOR GENERAL
Audit of the Pension Benefit Guaranty Corporation’s
Fiscal Year 2011 and 2010 Special-Purpose Financial Statements
AUD-2012-4/FA-11-82-4
(http://oig.pbgc.gov/audit/2012/pdf/FA-11-82-4.pdf)

As part of the annual financial statements audit, Clifton Gunderson also audited the
PBGC Fiscal Year 2011 and 2010 Special-Purpose Financial Statements. The auditors
concluded that the special-purpose financial statements and accompanying notes
presented fairly, in all material respects, the financial position of PBGC as of               PBGC’s Special
September 30, 2011 and 2010, and its net costs and changes in net position for the            Purpose Financial
years then ended and that the presentation was consistent with requirements of the               Statements
U.S. Department of the Treasury.                                                              “presented fairly.”
PBGC prepares special-purpose financial statements to provide financial information
to the Treasury and Government Accountability Office (GAO) through the
Government-wide Financial Reporting System for GAO’s use in preparing and
auditing the Financial Report of the U.S. Government. The special purpose report is
not intended to be a complete presentation of PBGC’s financial statements. Rather,
these special purpose financial statements link PBGC’s audited financial statement to
the Financial Report of the United States Government.

Fiscal Year 2011 Financial Statements Audit Management Letter
AUD-2012-6/FA-11-82-6
The annual financial statements audit process led to the identification of certain less
significant matters related to PBGC internal control and operations that were not
included in the internal control report (AUD-2012-2/FA-11-82-2), discussed above.
The management letter summarized findings that resulted in 28 new
recommendations (one of which was reclassified from the FY 2011 Internal Control
Report), and reported on the status of 34 recommendations that remain open from
prior years’ management letter reports.

While these management letter findings and recommendations were not material
control issues and were not material in dollar value considered in context of PBGC’s
financial statements, they are nonetheless important because they are intended to
improve PBGC’s internal control or result in other operational improvements. The
findings and new recommendations address areas such as:

       The ability of contractor personnel to edit data for their relatives in some
         PBGC IT systems;

       Errors in final benefit statements, resulting in incorrect lump sum benefit
         payment determinations;

       An incorrect interest rate used in the actuarial calculation of balance sheet
         liabilities; and

       Errors in interpreting pension plan provisions, with resulting incorrect benefit
         calculations.

In responding to the management letter, PBGC leadership agreed with the
recommendations and provided planned corrective actions and estimated
completion dates.
                SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/11 AND 3/31/12          17
                     Statutory Review of PBGC’s Compliance with the Implementation
                     of the Improper Payments Information Act
                     EVAL-2012-8 /PA-11-85
                     (http://oig.pbgc.gov/audit/2012/pdf/PA-11-85.pdf)

                     The Improper Payments Elimination and Recovery Act (IPERA) amended the
                     Improper Payments Information Act (IPIA) and required us to evaluate PBGC’s
                     compliance with IPIA requirements. We found that PBGC has instituted a systematic
                     method to review its programs and activities for improper payments and has
                     generally complied with IPIA and the implementing requirements issued by the
                     Office of Management and Budget (OMB).

                     Although we concluded that PBGC had generally met the specific compliance
                     requirements established by OMB, we noted that PBGC’s methodology for estimating
                     improper payments had certain analytical flaws. Our observations of issues that
                     should be addressed by PBGC in future efforts include:

                            In its Annual Report, PBGC incorrectly reported the net of overpayments and
PBGC complied with            underpayments for improper benefit payments and for improper payments
                              to contractors. While OMB guidance does not forbid reporting net amounts,
Improper Payments
                              the guidance does require reporting the gross estimate, numbers that PBGC
  Information Act.            did not include in its annual report. According to PBGC staff, this occurred
                              because they considered the net to be more relevant from a collection and
                              recovery perspective.

                            In future years, PBGC should attempt to attain improved precision in its
                              statistical sample design. While each of the statistical estimates reported in
                              PBGC’s Annual Report met the precision required by OMB, other statistical
                              estimates related to documentation issues in benefit payments and reported
                              in PBGC’s internal report were not sufficiently precise. This occurred because
                              PBGC and its contractor assumed an overall error rate in planning for the
                              statistical sample that was lower than the actual rate determined through
                              PBGC's testing.

                     Improving PBGC Operations
                     As part of our effort to improve PBGC’s operations, we supported PBGC’s Office of
                     General Counsel in the implementation of important initiatives.

                     Protecting Privacy. Privacy stewardship and governance are critical elements of
                     PBGC’s operations; the absence of an effective privacy program can lead to the
                     erosion of privacy protections and the loss of the public’s trust. Protecting personally
                     identifiable information (PII) is an integral part of PBGC’s business operations and
                     should be a core consideration for every PBGC department, employee, and
                     contractor. The OIG and PBGC have engaged in joint efforts to bring privacy
                     protection to the forefront at PBGC. As reported in our prior semiannual report,
                     PBGC is striving to have a model privacy program, conducted under the auspices of
                     the Office of General Counsel. Beginning in the spring of 2011, OGC initiated “Privacy
                     Week,” a program with a series of speakers and events highlighting various aspects of

         18          PBGC OFFICE OF INSPECTOR GENERAL
privacy protection. OIG participated by arranging for an expert speaker from the
Federal Communications Commission OIG to present and lead a discussion about
identify theft.

New Suspension and Debarment Program. OGC took aggressive steps to close a
long-standing gap in procurement protections by creating a suspension and
debarment program. In developing this new program, OGC recognized OIG’s
important role in suspension and debarment investigations and provided their draft
program for OIG review to ensure appropriate description of the OIG’s activities when it
receives referrals or allegations of procurement misconduct. Upon issuance of the
policy and procedures, we again worked together to draft an article for the employee
newsletter explaining the new program; we also collaborated on training that will soon      PBGC implemented
be provided to those in PBGC with procurement responsibilities.                              a suspension and
                                                                                            debarment program.
Liaison. OIG and OGC senior leaders meet at least quarterly to discuss matters of
concern to PBGC. In addition, the General Counsel has frequently served as PBGC’s
liaison with our office to ensure there is clarity about the issues OIG has raised and to
provide guidance to PBGC management on appropriate corrective actions and
responses. This involvement has benefitted agency operations and resulted in PBGC’s
corrective actions, leading to resolution and closure of audit recommendations.

Information Technology Issues Caused Additional Risks

As reported in our Financial Statement Audit, PBGC’s slow progress in mitigating
systemic IT security control weaknesses posed an increasing and substantial risk to
PBGC’s ability to carry out its mission during FY 2011. The extended time required and
the lack of meaningful progress in PBGC’s multi-year approach to correct previously
reported IT deficiencies, at the root cause level, introduced additional risks. These
include technological obsolescence, inability to execute corrective actions, breakdown
in communications and poor monitoring.

Throughout the year PBGC has provided OIG with updates on its implementation of
the agency’s five-year Corrective Action Plan (CAP). The CAP is intended to address IT
issues at the root cause level and correct the material weaknesses in entity-wide
security program planning and management, access controls and configuration
management reported in the financial statement audit. We had previously expressed
concern that fundamental IT security weaknesses could worsen while the agency
implements the multi-year CAP, posing a greater threat to its IT environment. Certain
aspects of PBGC’s IT have indeed worsened while the CAP is being implemented, as
noted in our recent Vulnerability and Penetration testing work (see below).

During FY 2011, PBGC completed the Assessment and Authorization for the agency’s
General Support Systems, an important milestone in the overall CAP. In FY 2012, PBGC
plans to resolve more than half of the outstanding audit recommendations related to
Access Controls and Security Program Planning and Management. We look forward to
receiving and analyzing information about the actions PBGC has taken to improve IT
security and operations.




             SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/11 AND 3/31/12          19
                      FY 2011 Federal Information Security Management Act (FISMA)
                      Submission to the Office of Management and Budget
                      LTR 2012-3/FA-11-82-3
                      (http://oig.pbgc.gov/audit/2011/pdf/FA-11-82-3.pdf)

                      The Federal Information Security Management Act (FISMA) requires federal entities
                      to report annually to OMB the state of their information security. FISMA also requires
                      Inspectors General to conduct independent annual evaluations of agencies’ security
                      programs and practices and to report the results to OMB. In conjunction with the
                      financial statement audit, we contracted with Clifton Gunderson to perform, under
                      OIG oversight, an independent evaluation to assess the effectiveness of PBGC’s
                      information security program and practices and to determine compliance with the
                      requirements of FISMA and related information security policies, procedures,
                      standards, and guidelines.

                      We reported that PBGC’s systemic security control weaknesses continued to pose a
                      substantial and increased risk to PBGC’s ability to carry out its mission during FY
                      2011. The Corporation continued its implementation of an enterprise multi-year CAP
                      to address IT security issues at the root cause level. The extended time and the lack
                      of meaningful progress in PBGC’s corrective action plan to correct previously
                      reported deficiencies introduced additional risks. PBGC management has recognized
                      that these weaknesses will continue to pose a threat to its IT environment while
                      corrective actions are being implemented. Our primary concern, as expressed in our
                      FISMA report, is whether PBGC will be able to implement interim corrective actions in
                      a way that will ensure that fundamental security weaknesses do not worsen as the
                      CAP is being implemented.

                      Fiscal Year 2011Vulnerability Assessment and Penetration
                      Testing Report
                      EVAL 2012-7/ FA 11-82-5
                      (http://oig.pbgc.gov/audit/2012/pdf/FA-11-82-5.pdf)

                      PBGC has committed to reducing the number of vulnerabilities on its networks. The
                      Corporation has acknowledged that attention is needed to mitigate the
                      vulnerabilities identified by OIG in our assessment of PBGC’s computer systems to
Systemic IT control   find weaknesses that may allow employees or outsiders to cause harm to, and/or
weaknesses pose a     impact PBGC’s business processes and information. As part of that review,
  risk to PBGC.       conducted as part of the financial statements audit engagement, we found major
                      issues of concern in patch management, access controls, and configuration
                      management; many of the vulnerabilities identified were repeated from prior years.
                      We determined that PBGC’s information security has not improved since the prior
                      year and that PBGC’s systems are exposed to increased risks.

                      Critical vulnerabilities are defined as flaws that could be easily exploited by a remote
                      attacker with no password (i.e. unauthenticated) and lead to system compromise
                      without requiring user interaction. High severity vulnerabilities are flaws that can
                      easily compromise the confidentiality, integrity or availability of resources. This year's
                      testing disclosed many more high risk vulnerabilities than in prior years. We found
                      that urgent management attention and commitment will be needed to mitigate
                      existing vulnerabilities. We recommended that PBGC leadership:

          20          PBGC OFFICE OF INSPECTOR GENERAL
        Implement an effective continuous monitoring program;
        Apply timely patches and updates;
        Strengthen passwords; and
        Take action to avoid potential network outages.

To PBGC’s credit, in response to our most recent evaluation the Chief Information
Officer has created a team to address reported weaknesses and has committed to
reporting on the mitigation of critical and high vulnerabilities within 90 days.
Additionally, PBGC has obtained contract support to perform monthly scans. OIG will
follow-up on the proactive steps to be taken by PBGC until the Corporation has
demonstrated all vulnerabilities have been effectively eliminated or mitigated.

PBGC Management Decision Needed for Recommendations in
OIG’s Audit Report on PBGC’s Preparedness for a Potential
Influx of Pension Plans                                                                        PBGC has not acted
                                                                                                   on key OIG
PBGC has not yet implemented or developed a plan to implement OIG                               recommendations.
recommendations intended to enhance PBGC’s ability to meet its mission in the
eventuality of a greatly increased workload. In November 2010, in response to a
Congressional request, we issued an evaluation report describing the need for PBGC
to enhance its ability to deal with a potential influx of pension plans. We reported on
PBGC’s need to take a number of key corrective actions, to include:
   Development of a strategic plan and associated tactics for ensuring that the
     Corporation can continue to meet its mission under a range of possible workload
     scenarios;
   Ensuring that the Corporation’s planning efforts reflect the importance of
     contractors to PBGC; and
   Ensuring the workability of plans and making necessary refinements to position
     PBGC for readiness to address an increased workload.


The Chief Operating Officer responded to our report, noting PBGC’s conclusion that
the risk of large influx of plans is lower than in the prior year and that the resources
needed to address the report’s recommendations would be better used in other,
higher priority, areas. PBGC then proposed to take several specific steps as an
alternative to OIG’s recommended corrective actions, including the development of a
Large Influx Working Group (LIWG) Planning Document as a basis to address OIG’s
recommendations. According to PBGC’s 2010 response, the role of the LIWG would
include:
   Handling situations, such as industry failure, in addition to individual large plans;
   Defining triggers that would initiate the LIWG to plan for different circumstances;
   Identifying dependencies and sequencing in planning;
   Ensuring support functions such as Human Resources, Facilities, Information
     Technology and Procurement have sufficient information and involvement; and
   Ensuring contract ceilings and scopes are specifically considered in approaches.



                SEMIANNUAL REPORT TO CONGRESS             PERIODS ENDING 9/30/11 AND 3/31/12         21
                       OIG responded that the alternatives proposed by PBGC were not sufficiently detailed
                       to allow us to determine whether they would lead to effective corrective actions.
                       Although our report requested that PBGC provide us, within 90 days, a status update
                       and anticipated timeframes for the development of the proposed LIWG planning
                       document, the 90 day update was not provided and PBGC did not take the actions
                       promised in its response to our report.

  PBGC commits to      We followed up numerous times with PBGC management on this report. In January
considering workload   2012, PBGC senior management informed OIG that action had not been taken to
       influx.         address the report’s findings and recommendations because the agency’s limited
                       resources had been directed toward other issues raised by OIG.

                       PBGC agrees there is value in considering the workload influx from a broader
                       strategic perspective and has tasked a Senior Level manager to pioneer PBGC’s
                       efforts, including coordinating across Departments. PBGC reported an intention to
                       complete the design and initial documentation of the strategic process that the
                       Corporation will use to prepare for a potential workload influx. PBGC also intends to
                       direct departmental representatives to develop tactical plans in support of the
                       strategic plan. The Corporation plans to test its strategic and tactical plans by
                       conducting a tabletop exercise in the summer of 2012. The overall purpose of the
                       exercise will be to provide a forum for management to walk through a specific
                       scenario of workload influx. Following the tabletop exercise, PBGC has stated that
                       management may refine the strategic and tactical plans if needed.

                       In discussing PBGC’s long overdue response, the PBGC Director expressed a renewed
                       sense of urgency and informed us of his personal attention to the report.
                       Nevertheless, as of the date of issuance for this combined Semiannual Report, we
                       have not received information about PBGC’s revised plan to address key
                       recommendations. We look forward to receiving PBGC’s written plan to evaluate
                       whether we can concur in PBGC’s management decision on the findings and
                       recommendations.

                       Investigations
                       The OIG is responsible for the prevention and detection of fraud, waste, abuse and
                       mismanagement through investigations. OIG special agents investigate allegations
                       of external fraud by pension plan sponsors, participants, and third parties who divert
                       pension assets or benefits, as well as internal fraudulent activities or misconduct of
                       Federal employees and contractors.

                       Fiduciary Breach Investigation Results in Guilty Plea
                       and Restitution Order

                       Based upon information received from the Department of Labor’s Employee Benefits
                       Security Administration (EBSA), the OIG initiated an investigation of a plan sponsor’s
                       fiduciary breach in directing pension plan assets to purchase property to benefit a
                       business venture. Our investigation resulted in Edward Scott Emerson, sole trustee of
                       the Mueller Electric Company Employees Pension Plan (Plan), being charged in the
                       U.S. District Court of Ohio, Northern District with converting pension plan assets to
                       his personal use.


          22           PBGC OFFICE OF INSPECTOR GENERAL
On February 22, 2012, Emerson pled guilty to violating 18 U.S.C. § 664, “Theft or
Embezzlement from an Employee Benefit Plan” and entered into a plea agreement
                                                                                 with a restitution order
                                                                                 in an amount to be
                                                                                 determined by the
                                                                                 judge. Our investigation
                                                                                 revealed that Emerson,
                                                                                 as the sole trustee, had
                                                                                 directed the Plan’s
                                                                                 purchase of two parcels
                                                                                 of property for
                                                                                 approximately $310,000
                                                                                 in June 2006. This
                                                                                 property consisted of
Sign designating parking for Maui Sands Indoor Waterpark Resort
                                                                                 two vacant lots Emerson
                                                                                needed for a business
venture unrelated to Mueller Electric or the Plan. In Sandusky, Ohio, Emerson was
building a hotel and resort water park complex, Maui Sands. However, Emerson
could not obtain operation permits for Maui Sands as the project did not have
sufficient parking space.
Emerson used $310,000 of
the Plan’s assets to purchase
two parcels to build parking
lots in order meet the zoning
requirements for the Maui                                                                                     Plan Assets were
Sands parking. The purchase                                                                                 used for a waterpark
contract also provided that                                                                                   parking lot. Plan
the seller had the right to re-                                                                             fiduciary pled guilty
purchase the property for
only $175,000 if the Maui                                                                                     to misusing plan
Sands water park venture                                                                                           assets.
did not go forward within                Parking lot purchased with Mueller Electric Pension Plan Assets
five years.

Under ERISA, all assets of an employee benefit plan are to be held in trust by one or
more trustees, and a plan trustee must use plan assets solely for the benefit of the
plan participants. Moreover, it is a prohibited transaction, subject to both civil and
criminal penalties, for a plan trustee to engage in any activity that is not an arm’s
                                                           length transaction - that is,
                                                           the trustee may not, directly
                                                           or indirectly, engage in a
                                                           transaction that benefits
                                                           himself or another party-in-
                                                           interest such as a relative or
                                                           a company he controls.

                                                                       Emerson’s abuse of the plan
                                                                       continued through
                                                                       September 2009, when after
                                                                       Maui Sands closed and a
                                                                       receiver was appointed for
Maui Sands Water Park, a venture unrelated to the Mueller Electric

                  SEMIANNUAL REPORT TO CONGRESS                      PERIODS ENDING 9/30/11 AND 3/31/12            23
                       both Maui Sands and Mueller Electric, Emerson concocted a plan to sell the parcels to
                       a relative at a reduced price in order to maintain control of the parcels and keep
                       them out of the hands of the court appointed receivers. Emerson hoped to regain
                       control of Maul Sands or dictate its operations by controlling a key parcel. As a result
                       of Emerson’s scheme, the Plan sold the parcels to Emerson’s relative at a loss to the
 The Plan trustee      Plan of approximately $130,000 immediately prior to the termination of the Plan. In
 diverted pension      addition, Emerson caused the Plan to make a mortgage note of $160,000 to the
                       relative in order to finance the sale.
funds at a time when
 assets covered only   When making its termination decision effective July 2009, PBGC determined that the
  half of promised     Plan’s liability for guaranteed pension benefits to 168 participants was $6.1 million
       benefits.       and the Plan only had $3.4 million in assets. At a time when Plan assets covered
                       about half of the promised benefits to participants, Emerson sold a Plan asset at a
                       reduced price and caused the Plan to receive very little money in return by causing
                       the Plan to finance the sale at favorable terms. In the plea agreement, Emerson
                       admitted that he was a fiduciary/trustee of the Plan and “the Plan’s purchase of the
                       property for the intended use as a parking lot by Maui Sands and the subsequent
                       paving and use of the property for that purpose were prohibited transactions under
                       ERISA because Defendant, as Trustee, had a conflict of interest as owner-developer of
                       Maui Sands.” Emerson also admitted that by selling the parcels to his relative and
                       causing the Plan to make a mortgage to his relative, he “willfully converted the
                       parking lot property to his own use and use of relative.”

                       The mortgage between the Plan and the relative contained a clause which entitled
                       the Plan or successor trustee to any lease payments the relative received by leasing
                       the property to the owner or operator of Maui Sands. The plea agreement provided
                       that the amount of restitution would be reduced by any lease payments received by
                       PBGC. Prior to arraignment, Emerson’s attorney delivered a $75,000 check to the
                       United States Attorney’s Office representing a lease payment received by the relative.

                       Subsequent to the end of the reporting period for this combined Semiannual report,
                       Emerson was sentenced to three years probation. On May 23, 2012, Emerson was
                       ordered to serve six months of probation on home detention with electronic
                       monitoring and to make restitution to PBGC in the amount of $87,932.86. Further, as
                       Emerson was convicted of a felony count of Title 18 U.S.C. §664, Emerson is
                       prohibited by ERISA §411 from serving or being permitted to serve in the following
                       employee benefit plan positions and capacities for a period of 13 years after his
                       conviction: administrator, fiduciary, officer, trustee, custodian, counsel, agent,
                       employee, consultant, advisor, or representative in any capacity.

                       The case was investigated jointly by PBGC OIG, the Department of Labor OIG, EBSA,
                       and the Federal Bureau of Investigations.

                       In addition, while investigating the fiduciary breach, OIG discovered that the Plan had
                       paid an invoice to a CPA firm twice. In March 2011, OIG issued a referral memo to the
                       Office of Chief Counsel (OCC) and the Office of General Counsel advising them of the
                       duplicate payment from the Plan’s assets. Pursuant to OCC’s collection efforts, PBGC
                       received $4,800 from the CPA firm in May 2012.




          24           PBGC OFFICE OF INSPECTOR GENERAL
Proceeds from Pension Fraud Returned to PBGC

A participant from Blytheville, AR reported to OIG that his former wife filled out a
pension application and had his lump sum payment for $3,990.82 diverted to her
home address without his knowledge. Once she received the check, the ex-wife
forged the participant’s name on the check and used his identification to cash the
check at a local funeral home in Osceola, AR. A portion of the funds were used to pay
off a debt she owed the funeral home; she stated that she planned to keep the
remaining money to pay bills and other personal expenses.

We successfully tracked the funds to the funeral home and worked with PBGC’s
Retiree Services Division to have the funeral home repay the funds to the PBGC. The
PBGC received repayment of the full amount,$3,990.82, from the funeral home and a
replacement check was sent to the participant.

PBGC Employees Fraudulently Received More than $10,000
in Parking Subsidies

Our investigation found that over a five-year period two Federal employees provided
false certifications to PBGC that they were carpooling together and met the
subsidized parking requirements. In fact, they had never carpooled to work together
during the five-year period. We found that the employees received more than
$10,000 in subsidized parking benefits to which they were not entitled. After the US
Attorney’s Office declined to prosecute the PBGC employees, we referred the matter
to PBGC management for action, including appropriate discipline and collection.              PBGC employees
PBGC operates a parking subsidy program that offers reduced parking rates in their             defrauded the
1200 K Street property’s underground parking facility for PBGC employees who                  government and
commute in carpools. Employees may submit a carpool application through which               received $10,000 in
they certify to certain facts, including where they live, how far they commute to work,
and the nearest mode of public transportation to their home. One of the mandatory                 benefits.
carpool requirements is that employees must make at least eight one-way trips each
week in the carpool. Each month, the carpool permit holder certifies that the
carpool’s information has not changed and the carpool is still eligible to receive the
subsidy. The monthly amount of the subsidy can be significant; currently, a two-
person carpool only pays $38.74 for a parking space that costs PBGC $226.24 – a
$187.50/month subsidy.

PBGC Employee Terminated for Travel and Purchase Card Fraud
We found that, for three government-authorized trips over a period of about two
years, a PBGC employee received and retained travel cash advances to pay for
lodging expenses that the employee had improperly charged to a PBGC
departmental credit card. The employee’s actions caused PBGC to pay the lodging
costs through the departmental credit card while the employee retained the travel
advance that was intended to cover those same lodging expenses. As a result, the
employee received $4,133 in cash advances that were not used to pay lodging
expenses.

Upon return from travel, the employee prepared and submitted travel expense
reports claiming lodging expenses – that is, the employee did not report that the
hotel expenses were charged to the departmental credit card. The employee then
certified the travel expense reports that the amounts claimed were true and correct
               SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12         25
                       and that no payment or credit had been received. When questioned about this
                       matter, the employee admitted retaining the funds for personal use.

                       Upon the OIG’s referral to the U.S. Attorney’s Office for the District of Columbia, the
                       matter was accepted for prosecution. Subsequently, due to limited resources and
                       higher case priorities, the U.S. Attorney’s Office decided not to prosecute and
                       referred the matter back to OIG. We then issued a Report of Investigation to PBGC for
                       appropriate administrative action. The employee was removed by PBGC.

                       Management Advisory: Senior-level Manager Misconduct
                       The Office of Inspector General received a complaint that a PBGC senior-level
                       manager made a potentially offensive comment during a training session held
                       March 15, 2011 in the PBGC Training Institute. The training session was designed to
                       provide new managers an introduction to human resources management and was
Senior level manager   attended by career federal employees from across PBGC.
  lacked candor in
   answering OIG       During multiple interviews with OIG investigators, the senior level manager denied
                       making the comment. However, we interviewed three independent witnesses,
     questions.        including the training consultant hired to present the class, who corroborated that
                       the manager had publicly made statements to the entire class comparing PBGC to
                       “Peyton Place.” As a result, the OIG sent a Management Advisory to the PBGC Director
                       advising him of the senior manager’s lack of candor in responding to questions from
                       OIG investigators.

                       Status of Audit Recommendations
                       As of March 31, 2012, the ending date of the periods covered by this combined
                       report, 195 OIG recommendations were open. As of April 1, 2011, there were 205
                       open audit recommendations. Upon our review of PBGC’s submitted
                       Recommendation Completion Forms (RCFs), we determined that 45
                       recommendations could be closed for the period ending September 30, 2011. The
                       closure of 45 recommendations resulted in 160 audit recommendations remaining
                       open as of September 30, 2011, of which 61 were IT-related as shown in the chart
                       below:


                                 Open Recommendations as of 09/30/11 by Type

                                              16%        11%
                                                                       17%              Contracting
                                18%
                                                                                        Financial & Investment
                                                                                        OIT
                                                                                        Benefits Administration
                                                         38%                            Other




          26           PBGC OFFICE OF INSPECTOR GENERAL
                              Open Recommendations by Type

         17    Contracting

         29    Financial & Investment

         61    OIT

         28    Benefits Administration

         25    Other


       160     Total Open Recommendations

During the following six months (ending 3/31/12), we concurred in the closure of 24
additional recommendations based on our review of information submitted by
PBGC. These closures included seven recommendations in the procurement area.

Two items are particularly noteworthy for the one-year period from April 1, 2011 to
March 31, 2012:
      We agreed to the closure of 39 audit recommendations related to the
       Procurement Department. Many of these recommendations had not been
       addressed for years, including 18 recommendations that were more than 5             More than one-third
       years old and an additional 19 recommendations that were between 3 and 5                  of open
       years old.                                                                           recommendations
                                                                                             relate to BAPD.
      We noted that relatively few recommendations relating to information
       technology issues could be closed during the period; only 4 IT
       recommendations open as of April 1, 2011 were closed during following year.

For the period ending March 31, 2012, more than one-third (73) of the open
recommendations were related to the Benefits Administration and Payment
Department. This is primarily due to recent OIG reports addressing significant
systemic weaknesses in BAPD’s plan asset valuation and participant data audit
processes and other weaknesses identified during the financial statement audit. As
described in our financial statement audit report, the combination of these findings
resulted in a material weakness in PBGC’s internal controls. The following charts
illustrate Open Recommendations, by type, as of March 31, 2012.


              Open Recommendations as of 03/31/2012 by Type

                                                               Contracting
                             11% 5%
                                         14%                   Financial & Investment
                                                               OIT

           38%                                                 Benefits Administration
                                               32%             Other




                SEMIANNUAL REPORT TO CONGRESS         PERIODS ENDING 9/30/11 AND 3/31/12         27
                                           Open Recommendations per Type
                            10   Contracting
                            28   Financial & Investment
                            63   OIT
                            73   Benefits Administration
                            21   Other


                           195   Total Open Recommendations



                    PBGC will be challenged to correct these important issues as they address the results
                    of the recent strategic review of their post-termination plan processes; review the
                    knowledge, skills and abilities of their employees and contractors; and ensure that
                    each is trained to do the necessary work consistent with applicable professional
                    standards.

                    Aging Schedule of Open Recommendations as of September 30, 2011 and
                    March 31, 2012

                    As noted in the following charts, PBGC has taken steps to address some long-
                    standing issues, with the result that we were able to close out some of the older
                    recommendations. However, despite the closure of 69 recommendations, the
  OIG agreed to     backlog of overdue corrective actions has not been significantly reduced. After
  closure of 69     considering the 59 new recommendations made during the period, PBGC has made
recommendations     only a limited reduction in the number of outstanding audit recommendations —
                    from 205 as of April 1, 2011 to 195 as of March 31, 2012. While the average age of
 during reporting   outstanding recommendations was more than two years old, PBGC made some
     periods.       progress in reducing the average age of an open OIG recommendation from 28
                    months as of April 1, 2011 to 27 months as of March 31, 2012.

                    As of March 31, 2012, no scheduled completion date has been established for 31 of
                    195 recommendations. Based on its own internal reports, PBGC plans to complete
                    many of its open recommendations in the near future. A total of 124
                    recommendations are scheduled for completion by September 30, 2012.

                    While PBGC should update its plans to ensure that each recommendation has a valid
                    date of planned completion, the Corporation needs to take additional concerted
                    action to address open audit recommendations. Of the 195 recommendations open
                    as of March 31, 2012, the planned completion date for almost 30% (56) has been
                    extended five or more times. For 15 of these recommendations, the planned
                    completion date has been extended ten or more times. This repeated deferral of
                    corrective action indicates that PBGC is routinely failing to meet its own goals for
                    corrective action.




         28         PBGC OFFICE OF INSPECTOR GENERAL
           Scheduled Date of Completion for Open 
                    Recommendations

                                                           By the end of September 30, 
                       16%
                                                           2012

        18%                                                6 months to 1 year

                                           64%
                                                           1 to 3 years


      2%                                                   No Date provided by PBGC




                                                                                             PBGC plans to
                                                                                             close more than
                              Scheduled Date of Completion                                    one-half of its
                                                                                            recommendations
       124     By the end of September 30, 2012
                                                                                            within the next six
           4   6 months to 1 year
                                                                                                 months.
         36    1 to 3 years
         31    No date provided by PBGC


       195     Total




In a recent update, Chief Information Officer advised that a significant number of IT-
related recommendations would be addressed, with details of corrective action
submitted for OIG’s review as part of the upcoming financial audit.




                SEMIANNUAL REPORT TO CONGRESS          PERIODS ENDING 9/30/11 AND 3/31/12         29
                        Other OIG Reporting

                        Access to Information

                        The Inspector General Act permits the Inspector General to have unfettered access to
                        all agency records, information, or assistance when engaged in an investigation or
                        audit. Whenever access to requested records, information, or assistance is
                        unreasonably refused or not provided, the Inspector General must promptly report
                        the denial to the agency head. We have not been denied access nor has assistance
                        been unreasonably refused during this reporting period.

                        Management Decisions

                        The Inspector General reports the following about management decisions on audit
                        reports that occurred during the two six-month periods covered by this combined
                        report:

                         As of March 31, 2012, there are three OIG reports with recommendations that do
                           not have an agreed-to management decision. One report is more than six
                           months old; the other two reports were issued more recently.
                         PBGC significantly revised its proposed management decisions regarding
                           recommendations included in the report Evaluation of PBGC’s Strategic
                           Preparedness for a Potential Workload Influx, issued November 16, 2010. The
                           Corporation had proposed an alternative corrective action, but now advises OIG
                           that a different approach to the reported issues is in the planning process. As of
                           the date of this report, we have not been advised of the new proposed plans.
                         There were no management decisions of a material nature with which we did
                           not agree.


                        Audit Peer Review Results
                        Government Auditing Standards require each audit organization to obtain an
                        external review of its system of quality control every three years and make the results
 PBGC OIG has the       publicly available. In an external peer review of the PBGC OIG’ s audit program for
highest possible peer   the year ending September 30, 2009, we received the highest possible peer review
                        rating, a rating of “pass.” The “pass” rating means that the external reviewer
   review rating.       determined that our system of quality control was suitably designed and our
                        adherence to this system provided reasonable assurance that we performed work
                        and reported results in accordance with professional standards. A copy of this peer
                        review is found at our website: http://oig.pbgc.gov/audit/2010/pdf/
                        PBGC_Peer_Review_Report_2009.pdf.




           30           PBGC OFFICE OF INSPECTOR GENERAL
Other OIG Activities
Review of Proposed Statutory and Regulatory Changes

A major responsibility of the OIG under the Inspector General Act is the independent
review of PBGC-proposed changes to laws and regulations. There were no significant
PBGC statutory proposals during these periods, and OIG did not review any new
proposed regulations.

Audit Peer Review of the Federal Reserve OIG
We conducted a quality control review of the audit operations of the Office of
Inspector General of the Board of Governors for the Federal Reserve (FRB). External
peer reviews are conducted within the OIG community to evaluate the audit
organization’s system of internal quality control and to ensure that it complies with
government auditing standards, as required by the Inspector General Act. As part of
the peer review, we evaluated the FRB OIG’s staff qualifications, their independence,
audit work, training, and quality control procedures. The results of this peer review
can be found on the FRB OIG’s website at http://www.federalreserve.gov/oig/files/
peer_review_report_2011_final.pdf.

Audit Manager Receives Prestigious CIGIE Barry R. Snyder Award
Jarvis Rodgers, IT audit manager, received the Barry R. Snyder Joint Award for his
work on a subcommittee developing new metrics to assess compliance with the                   OIG manager
Federal Information Security Management Act. OMB annually asks Inspectors General             recognized by
throughout government to assess their agencies’ compliance with the law. Rodgers
                                                                                            Inspector General
received this recognition for the leadership role that he played in the Inspector
General community through his contributions in developing the Information Security             Community.
Maturity Model that assists OIGs across government in their efforts to identify cyber-
security weaknesses and protect against threats to our nation’s IT infrastructure.

Inspector General Guest Speaker at Professional Gatherings

Inspector General Rebecca Anne Batts has spoken at a number of different venues in
the past year. Ms. Batts spoke about PBGC’s need for stronger management and
oversight to the Federal Audit Executive Committee. Together with four other
Inspectors General who are also auditors by profession, she addressed the future
direction of government auditing and inspector generalship at a conference
attended by audit executives of federal OIGs. At the annual CIGIE/GAO Financial
Statement Audit Conference, she spoke with OIG and CPA firm financial statement
auditors about ways to maximize the value of the annual financial statement audit.

Along with Assistant IG for Investigations Aaron Jordan, Ms. Batts continues to be a
guest speaker at sessions of the Executive Leadership Training sponsored by CIGIE
and the American University. This course is attended by GS-13s and GS-14s from
throughout the IG community. Their presentations focused on the value of
networking within the OIG community to achieve mission goals and objectives,
engendering a lively student interaction.


               SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12        31
                     OIG Leaders Serve as Chairs of Key CIGIE Committees

                     During the period covered by this report, the PBGC Inspector General was appointed
                     as chair of the Council of Inspectors General for Integrity and Efficiency (CIGIE)
                     Information Technology Committee. The IT committee comprises Inspectors General
                     from throughout the federal community and facilitates effective OIG information
                     technology audits, evaluations, reviews, and investigations. The Committee also
                     works to ensure that the community’s perspective on government-wide IT
                     operations is available to decision makers for their consideration. Committee activity
                     during this semiannual period addressed a wide range of issues, including cloud
                     computing and the contract clause language needed to ensure meeting the unique
                     needs of the Federal IG community in future cloud computing contracts, digital
                     forensic standards including the IG community approach to review of compliance
                     with those standards, and the Trusted Internet Connections (TIC) Initiative including
                     efforts to secure the OIG network boundary. Ms. Batts also serves on the CIGIE
                     Executive Committee, providing leadership to the Inspector General community and
                     to the CIGIE.

                     PBGC Assistant Inspector General for Investigations (AIGI) Aaron Jordan was named
 OIG employees
                     to a two-year term as Chair of the CIGIE Committee of Assistant Inspectors General
contributed to the   for Investigation, a subcommittee of the CIGIE Investigations Committee. He had
Inspector General    previously served as vice-chair of the Committee. The AIGI Committee serves as a
   community.        forum for internal discussion and a channel for suggestions, issues and concerns that
                     affect the OIG investigations community as a whole. The AIGI Committee
                     chairperson and vice chairperson serve as ex-officio members of the CIGIE
                     Investigations Committee. Under Mr. Jordan’s leadership, the AIGI Committee
                     undertook review of the Investigative Standards, culminating in the CIGIE issuance of
                     new Investigative Standards in December 2011.

                     External and Internal Professional Activities

                     Various staff members participated in external and internal professional activities.
                     Examples include:

                          The IG participates in the Council of Inspectors General for Integrity and
                            Efficiency (CIGIE) that promotes collaboration on integrity, economy, and
                            efficiency issues that transcend individual agencies. Ms. Batts serves as the
                            chair of the CIGIE Information Technology Committee, and as a member of the
                            CIGIE Executive Council and the CIGIE Audit Committee.

                          The Assistant IG for Audit serves on the Accounting and Audit Policy
                            Committee (AAPC), a permanent committee established by the Federal
                            Accounting Standards Advisory Board. Federal accounting standards and
                            financial reporting play a major role in fulfilling the government’s duty to be
                            publicly accountable. The AAPC issues technical releases related to existing
                            Federal accounting standards. AAPC’s technical releases are a form of
                            authoritative guidance for generally accepted accounting principles for Federal
                            entities. During the period covered by this report, the AAPC issued guidance for
                            estimating the historical cost of property, plant, and equipment and on
                            accounting for the disposal of property, plant, and equipment.


         32          PBGC OFFICE OF INSPECTOR GENERAL
 OIG’s IT audit manager participated in the Federal Audit Executive Committee
   Information Technology subcommittee. The FAEC IT Committee engaged in a
   number of activities to support the broader OIG community. The Committee
   worked closely with the Department of Homeland Security to refine the FY
   2012 FISMA Metrics in an effort to improve reporting to the Office of
   Management and Budget and other stakeholders. Additionally, noteworthy
   work was performed in providing input to Congress on proposed cyber                  OIG employees are
   security legislative provisions in FISMA and the Cyber Security and Internet        active in professional
   Freedom Act (S413).
 OIG’s Special Agent-in-Charge participated in the Washington Metro Electronic           organizations.
   Crimes Task Force (WMECTF) sponsored by the U.S. Department of Justice.
 An OIG auditor attended the Interagency Fraud and Risk Data Mining Group
   (IFRDMG) quarterly meeting and training sessions. IFRDMG meets to share
   information among OIGs concerning the latest data analysis techniques,
   accomplishments using data analytics, recommended data mining software
   and related training.




            SEMIANNUAL REPORT TO CONGRESS         PERIODS ENDING 9/30/11 AND 3/31/12          33
                    THIS PAGE INTENTIONALLY LEFT BLANK




34   PBGC OFFICE OF INSPECTOR GENERAL
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.

Inspector General
 Act Reference          Reporting Requirements.                                       Page

Section 4(a)(2)        Review of legislation and regulations.                        31
Section 5(a)(1)        Significant problems, abuses, and deficiencies.               5-22
Section 5(a)(2)        Recommendations with respect to significant                   9-10, 14-16,
                       problems, abuses, and deficiencies.                           20-22

Section 5(a)(3)        Prior significant recommendations on which                    41-42
                       corrective action has not been completed.
Section 5(a)(4)        Matters referred to prosecutorial authorities.                36
Section 5(a)(5)        Summary of instances in which information                     30
                       was refused.

Section 5(a)(6)        List of audit reports by subject matter, showing              38-39
                       dollar value of questioned costs and
                       recommendations that funds be put to better use.
Section 5(a)(7)         Summary of each particularly significant report.             5-22
Section 5(a)(8)        Statistical table showing number of reports and               38-39
                       dollar value of questioned costs.

Section 5(a)(9)        Statistical table showing number of reports and               38-39
                       dollar value of recommendations that funds be
                       put to better use.

Section 5(a)(10)       Summary of each audit report issued before this               37, 40
                       reporting period for which no management
                       decision was made by end of the reporting period.
Section 5(a)(11)        Significant revised management decisions.                    30
Section 5(a)(12)        Significant management decisions with which                  30
                        the Inspector General disagrees.




              SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/11 AND 3/31/12        35
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Periods Ending September 30, 2011 and March 31, 2012

                                                                  Period Ending                          Period Ending
                                                                  September 30, 2011                     March 31, 2012
Audit Reports Issued
     Number of Reports                                                      0                                          8
     Number of Recommendations                                              0                                         59
Management Decisions
    Open Recommendations Beginning of Period                              205                                     160
    Opened This Period                                                      0                                      59
    Closed This Period                                                     45                                      24
    Open Recommendations End of Period                                    160                                     195
    Reports with Open Recommendations End of Period                        30                                      28

Investigations
     Pending Beginning of Period                                            8                                         13
     Opened                                                                 8                                          6
     Closed                                                                 3                                          2
     Pending End of Period                                                 13                                         17

Complaints1
    Pending Beginning of Period                                            15                                         16
    Opened                                                                 57                                         48
    Closed                                                                 56                                         48
    Pending End of Period                                                  16                                         16
Financial Recoveries2
     Funds Recovered                                                        0                                $75,000

Criminal Actions2
     Indictments                                                            0                                         1

Administrative Actions2                                                     0                                         1
    Referrals
        For Prosecution:
            Department of Justice                                           2                                         1
            Various States’ Attorney Offices                                0                                         0
        Declined                                                            2                                         0

         For Other Action:
              PBGC Management for Corrective Action                         4                                         9


1
Complaints include allegations received through the hotline operation and issues resulting from proactive investigative
     efforts.
2
Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.




36                  PBGC OFFICE OF INSPECTOR GENERAL
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED – Period Ending 9/30/11


                                                 Reason For No Manage-          Anticipated
Report and Summary
                                                 ment Decision                  Management
                                                                                 Decision

Incurred Cost Audit, 2008-09/CA-0054             Management decision is           2/28/2012
   (9/30/2008)                                   pending as it awaits DCAA’s
                                                 completion of its incurred
                                                 cost audit and settlement of
Questioned Costs of $97,581 for unallowable
                                                 indirect cost rates.
costs associated with the use of unaudited in-
direct cost rates.


PBGC’s Strategic Preparations for Handling an    PBGC had determined not          9/30/2012
 Influx of Pension Plans, EVAL 2011-1/PA-09-     implement the approach
 65 (11/16/10)                                   initially proposed.


Develop strategic plan and tactics to ensure
PBGC can continue to meet its mission under a
range of possible workload scenarios




             SEMIANNUAL REPORT TO CONGRESS          PERIODS ENDING 9/30/11 AND 3/31/12        37
RESULTS OF REPORTS ISSUED
For the Six-Month Period Ending March 31, 2012

                                                 Number       Questioned   Unsupported      Funds Put to
                                                 of Reports     Costs      Costs            Better Use


 A. For which no management decision had         2            $97,581      $0              $0
    been made by the commencement of the
    reporting period.

 B. Which were issued during the reporting
    period.
     Audit of the Pension Benefit Guaranty                     $0          $0              $0
       Corporation’s Fiscal Year 2011 and
       2010 Special-Purpose Financial State-
       ments (11/14/11)
     Audit of the Pension Benefit Guaranty                     $0          $0              $0
       Corporation’s Fiscal Year 2011 and
       2010 Financial Statements (11/14/11)
     Report on Internal Controls Related to
                                                               $0          $0              $0
       the Pension Benefit Guaranty Corpora-
       tion’s Fiscal Year 2011 and 2010 Finan-
       cial Statements Audit (11/14/11)
     FY 2011 Federal Information Security                      $0          $0              $0
        Management Act (FISMA) Submission
        to the Office of Management and
        Budget (11/15/11)
     PBGC Processing of Terminated United
       Airlines Pension Plans was Seriously                     $0         $0            $26,008,959
       Deficient (11/30/2011)
     Statutory Review of PBGC’s Compliance
        with the Implementation of the Im-
        proper Payments Information Act                         $0         $0              $0
        (3/15/12)
     Fiscal Year 2011 Vulnerability Assessment                  $0         $0               $0
        and Penetration Testing (3/19/12)
     Fiscal Year 2011 Financial Statements Au-                  $0         $0               $0
        dit Management Letter (3/29/12)




      Total (Add A. & B.)                            10         $97,581         $0        $26,008,959



38             PBGC OFFICE OF INSPECTOR GENERAL
C. For which a management decision was                     7   $97,581          $0      $26,008,959
   made during the reporting period.


       (i) dollar value of disallowed costs                        $0           $0               $0


       (ii) dollar value of costs not disallowed                   $0           $0               $0


D. For which no management decision had                    3       $0           $0               $0
   been made by the end of the reporting
   period.


E. For which no management decision was                    1       $0           $0               $0
   made within six months of issuance.

 1
     Unsupported costs are a subset of questioned costs.




                            SEMIANNUAL REPORT TO CONGRESS       PERIODS ENDING 9/30/11 AND 3/31/12    39
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED – Period Ending 3/31/12


                                                     Reason For No Management          Antici-
Report and Summary                                     Decision                      pated Man-
                                                                                      agement
                                                                                      Decision

PBGC’s Strategic Preparations for Handling an   PBGC has determined that the ac-      9/30/2012
 Influx of Pension Plans, EVAL 2011-1/PA-09-    tions initially proposed are no
 65 (11/16/10)                                  longer the course it wants to fol-
                                                low. A revised approach is under
                                                development, with direct involve-
Develop strategic plan and tactics to ensure
                                                ment of the PBGC Director.
PBGC can continue to meet its mission under
a range of possible workload scenarios




 40            PBGC OFFICE OF INSPECTOR GENERAL
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Report Number, Report Title and Date       Number of     Significant Problems    Summary of Significant
Issued                                     Significant   and Deficiencies        Recommendations
                                           Recommenda-
                                           tions


96-4/23093-2                                             Significant             PBGC needs to complete
Audit of the Pension Benefit Guaranty                    Deficiency:             the integration of its fi-
Corporation’s Fiscal Year 1995 Financial                 Integrating Financial   nancial management sys-
Statements 03/13/1996                                    Management Sys-         tems.
      and                                                tems
                                                1
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on Internal
Control - PBGC’s FY 2007 and 2006 Finan-
cial Statements Audit
11/15/2007


2003-3/23168-2                                           Significant             PBGC needs to complete
Audit of the Pension Benefit Guaranty                    Deficiency:             its efforts to fully imple-
Corporation’s Fiscal Years 2002 - 2001                   Entity-Wide Informa-    ment and enforce an ef-
Financial Statements 01/30/2003                          tion Security Pro-      fective information secu-
      and                                                gram                    rity program.
                                                2
AUD-2008-2/ FA-09-0034-2                                 Planning &
Limited Disclosure Report on Internal                    Management
Control - PBGC’s FY 2007 and 2006 Finan-
cial Statements Audit
11/15/2007


2003-10/23177-2                                          Control weaknesses      PBGC needs to ensure
Review of PBGC’s Premium Accounting                      undermine the qual-     that its automated system
System                                          3        ity and integrity of    produces accurate and
10/10/2003                                               reported premium        verifiable premium ac-
                                                         revenues.               counting data.


2008-1/FA-0034-1                                         Significant             PBGC needs to mitigate
Audit of the Pension Benefit Guaranty                    Deficiency:             the systemic issues re-
Corporation’s Fiscal Years 2007 - 2006                   Access Controls         lated to information ac-
Financial Statements 11/15/2007                                                  cess controls.
       and
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on Internal          11
Control - PBGC’s FY 2007 and 2006 Finan-
cial Statements Audit
11/15/2007
                         SEMIANNUAL REPORT TO CONGRESS       PERIODS ENDING 9/30/11 AND 3/31/12             41
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED


Report Number, Report Title and Date Is-        Number of                Significant              Summary of Signifi-
sued                                            Significant              Problems and             cant Recommenda-
                                                Recommendations          Deficiencies             tions


AUD-2009-01/FA-08-49-1                                                   Significant Defi-        PBGC needs to com-
Audit of the Pension Benefit Guaranty Cor-                               ciency:                  plete the design, im-
poration’s Fiscal Years 2008 and 2007 Finan-                             Entity-Wide Informa-     plementation and
cial Statements 11/13/2008                                               tion Security Program    testing of security
    and                                                                  & Planning Manage-       controls, implement
                                                          3
AUD-2009-02/FA-08-49-2                                                   ment                     an effective certifica-
Limited Disclosure Report on Internal Con-                                                        tion and review proc-
trols – PBGC’s FY 2008 and 2007 Financial                                                         ess, and correct iden-
Statements 11/13/2009                                                                             tified access control
                                                                                                  vulnerabilities.


AUD-2010-09/IT-09-67                                      5              System control weak-     PBGC needs to
PBGC Needs to Improve Controls to Better                                 nesses placed PII of     strengthen security
Protect Participant                                                      approximately 1 mil-     controls and com-
Personally Identifiable Information (PII)                                lion participants at     plete a certification
09/16/2010                                                               risk.                    and accreditation re-
                                                                                                  view of the system
                                                                                                  housing the PII.


AUD-2010-08/IT-09-67                                                     Information technol-     PBGC should seek
                                                          3                                       OMB waiver allowing
Authorization to Operate PBGC Information                                ogy general support
Systems                                                                  systems and major        conditional authoriza-
08/18/2010                                                               applications without     tion, based on ongo-
                                                                         ATOs required by         ing efforts to improve
                                                                         OMB.                     information security.


 EVAL-2012-5/PA-10-72                                                    Systemic errors and      PBGC needs to re-
 PBGC Processing of Terminated United                                    omissions in audits of   value the UAL plan
 Airlines Pension Plans was Seriously Defi-                              terminated pension       assets and strengthen
                                                          15
 cient 11/30/2011                                                        plans                    the post-trusteeship
                                                                                                  audit process.


 EVAL-2011-10/PA-09-66                                                   Systemic errors and       PBGC needs to re-
  PBGC’s Plan Asset Audit of National Steel                              omissions in audits of    value the National
  Pension Plans was Seriously Flawed                                     terminated pension        Steel plan assets and
                                                            12
  3/31/11                                                                plans                     strengthen the post-
                                                                                                   trusteeship audit
                                                                                                   process.
 This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.

42             PBGC OFFICE OF INSPECTOR GENERAL
If you want to report or discuss confidentially any instance
  of misconduct, fraud, waste, abuse, or mismanagement,
       please contact the Office of Inspector General.


                        Telephone:
             The Inspector General’s HOTLINE
                     1-800-303-9737


   The deaf of hard of hearing, dial FRS (800) 877-8339
    and give the Hotline number to the relay operator.


                           Web:
     http://oig.pbgc.gov/investigations/details.html


                         Or Write:
          Pension Benefit Guaranty Corporation
                Office of Inspector General
                      PO Box 34177
               Washington, DC 20043-4177
